TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Impact of the Frontline Leader
                 Readiness Program on Succession Planning
                           Should Be Determined



                                          March 15, 2011

                              Reference Number: 2011-10-015




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE IMPACT OF THE FRONTLINE                          training courses, a shadow manager
LEADER READINESS PROGRAM ON                          assignment, and an acting assignment.
SUCCESSION PLANNING SHOULD BE                        The IRS is taking action to obtain feedback from
DETERMINED                                           Program graduates and their managers.
                                                     Overall, participants and managers generally
                                                     believe the Program is beneficial in helping
Highlights                                           employees prepare for frontline management.

Final Report issued on March 15, 2011                However, the IRS does not generally assess
                                                     graduates’ readiness for promotion upon
Highlights of Reference Number: 2011-10-015          completion of the Program or measure the
to the Internal Revenue Service Chief, Criminal      impact the Program has on succession planning.
Investigation, and the Internal Revenue Service      If the IRS assessed the promotion potential of
Human Capital Officer.                               Program graduates and measured the impact of
                                                     the Program, it could better determine its bench
IMPACT ON TAXPAYERS                                  strength (the relationship between the number of
                                                     employees ready for management and the
The Internal Revenue Service (IRS) created the       number of critical management positions) at the
Frontline Leader Readiness Program (the              frontline manager position and provide valuable
Program) to identify and develop highly skilled      feedback to graduates.
nonmanagers interested in assuming leadership
responsibilities. However, it is currently not       WHAT TIGTA RECOMMENDED
possible for the IRS to determine whether the
Program provides a pool of qualified candidates      TIGTA recommended that the IRS Human
ready for promotion or the overall impact of the     Capital Officer require an assessment of
Program on succession planning. Evaluating           readiness for promotion for Program graduates
the success of the Program would enable              interested in management. In addition, the
IRS management to make informed decisions to         Chief, Criminal Investigation, and the IRS
ensure that upcoming leadership vacancies are        Human Capital Officer should analyze these
filled in a timely manner with qualified leaders     assessments to determine whether changes are
who can address the challenges of the future,        needed to the Program and develop goals and
which will help to preserve public confidence in     measures to determine the Program’s impact on
the IRS’s ability to fulfill its mission.            succession planning. The IRS Human Capital
                                                     Officer also should develop a data collection
WHY TIGTA DID THE AUDIT                              process to capture all necessary information
                                                     from the operating divisions/functional offices to
This review was requested by the IRS Oversight       accurately measure the impact of the Program.
Board and addresses the major management
challenge of Human Capital. The overall              In their response to the report, IRS officials
objectives were to determine whether the             agreed with our recommendations. IRS officials
Program provided the IRS with a pool of              plan to require an assessment of readiness for
qualified candidates ready for promotion into        management at the end of the Program for
management positions and whether the IRS             those Program graduates interested in a
measured the impact of the Program.                  frontline manager position, and stated that they
                                                     will develop plans of what measures are needed
WHAT TIGTA FOUND                                     to determine the Program’s impact on
The IRS began the Program in Calendar                succession planning. The IRS also plans to
Year 2000 to identify and develop high-potential,    establish a data collection process to capture all
motivated employees for frontline manager            necessary information from the operating
positions. The Program takes 9 months to             divisions/functional offices related to the number
complete and includes classroom training             of their graduates and the number of promotions
sessions, outside reading assignments, online        on a fiscal year basis to accurately measure the
                                                     impact of the Program on frontline management.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 15, 2011


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION
                INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Impact of the Frontline Leader Readiness
                             Program on Succession Planning Should Be Determined
                             (Audit # 201010018)

 This report presents the results of our review to determine whether the Frontline Leader
 Readiness Program provided the Internal Revenue Service (IRS) with a pool of qualified
 candidates ready for promotion into management positions and whether the IRS measured the
 impact of the Program. This review was requested by the IRS Oversight Board and addresses
 the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                             The Impact of the Frontline Leader Readiness Program
                                 on Succession Planning Should Be Determined




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Feedback From Program Graduates Is Now Being Obtained ....................... Page 5
          Few Formal Assessments of Program Graduates’ Readiness
          for Management Are Completed .................................................................. Page 7
                    Recommendations 1 and 2: .............................................. Page 9

          Measures Have Not Been Established to Determine the
          Impact of the Program .................................................................................. Page 9
                    Recommendations 3 and 4: .............................................. Page 11


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Frontline Leader Readiness Program Cost Computations .... Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
                         The Impact of the Frontline Leader Readiness Program
                             on Succession Planning Should Be Determined




                                             Background

Leadership development is essential to the health of an organization. Highly effective
organizations have leadership development systems, as well as tools and processes designed to
assess supply and demand for leaders, enable career paths, select and develop leaders, and match
individuals to opportunities.
Leadership development for frontline managers is of particular importance because many
employees entering frontline management positions may not have management experience. In
May 2010, the Merit Systems Protection Board issued a report on frontline managers in the
Federal Government.1 In part, it concluded that it is essential for agencies to have valid selection
criteria and comprehensive training programs for frontline managers. However, it found most
agencies lacking in these essentials. Instead, the Board found more emphasis is placed on
technical competencies than supervisory skills when filling frontline manager positions.
The Internal Revenue Service (IRS) began the
Frontline Leader Readiness Program (hereafter            The purpose of the Frontline Leader
referred to as the Program) in Calendar Year 2000 to       Readiness Program is to identify
identify and develop high-potential, motivated                and develop high-potential,
                                                          motivated employees interested in
employees for frontline manager positions. The
                                                             frontline manager positions.
Program is designed to prepare employees for entry
into frontline leadership positions. In Calendar
Year 2009, the Workforce of Tomorrow Task Force2 reviewed manager training programs and
the development of future leaders. It worked with the IRS Human Capital Office to improve the
Program’s curriculum. Many changes were made as a result of this partnership, including
streamlining the content to eliminate redundancies, adding courses on coaching and time
management, and incorporating a shadow manager3 program. The entire Program takes
9 months to complete and includes 2 separate week-long classroom training sessions, outside
reading assignments, online training courses, a shadow manager assignment, and an acting
assignment. These changes were formally implemented in Fiscal Year 2010.
Responsibility for the Program rests with the IRS Human Capital Office and the IRS individual
operating divisions/functional offices. Generally, the IRS Human Capital Office develops the


1
  A Call to Action: Improving First-Level Supervision of Federal Employees, dated May 2010.
2
  Workforce of Tomorrow Task Force Final Report, dated August 2009. The IRS Commissioner established the
Workforce of Tomorrow Task Force in July 2008 with the goal to make the IRS the best place to work in
Government and ensure that within 5 years it has the leadership and workforce ready for the next 15 years.
3
  Program participants observe a manager and practice administrative tasks to obtain hands-on experience prior to
their own acting assignment.
                                                                                                            Page 1
                                       The Impact of the Frontline Leader Readiness Program
                                           on Succession Planning Should Be Determined



Program curriculum and the individual operating divisions/functional offices determine who
should attend the Program.4
The Program is important because the IRS will need potential leaders available to take on the
critical role that frontline managers play in transforming strategies and policies into results.
IRS future frontline leaders will need to sustain and build on the results of their predecessors.
According to the IRS, it employs more than 6,900 frontline managers. Over the last several
fiscal years, the number of frontline managers leaving their positions has decreased from a high
of 411 in Fiscal Year 2006 to a low of 295 in Fiscal Year 2009. In contrast, the number of
Program graduates has been increasing over the last several fiscal years. Figure 1 shows, by
fiscal year, the number of Program graduates and the number of frontline managers who have
left their positions.
    Figure 1: Comparison of Frontline Manager Attrition and Program Graduates

                                450   411
                                                       395
                                400
                                                                           353
                                350
          Attrition/Graduates




                                                                                          295 294
                                300                                              266
                                            232              237
                                250
                                200
                                150
                                100
                                50
                                 0
                                       2006              2007                 2008         2009
                                                                Fiscal Year

                                             Frontline Manager Attrition    Program Graduates

       Source: The Enterprise Learning Management System5 and the Human Resources Reporting Center.

According to IRS Human Capital Office management, as the United States economy improves
and the unemployment rate falls, the attrition rate may increase. Over the next 5 calendar years,

4
  In a few instances, the operating divisions/functional offices have developed their own Programs and do not follow
the IRS Human Capital Office’s curriculum. For example, Criminal Investigation has created its own Frontline
Leader Readiness Program.
5
  These figures represent the number of Program participants who completed the classroom training. They do not
capture if all other Program components, such as the acting assignment, were completed.

                                                                                                            Page 2
                          The Impact of the Frontline Leader Readiness Program
                              on Succession Planning Should Be Determined



the number of frontline managers who are eligible to retire will double. By Calendar Year 2015,
38 percent of frontline managers will be eligible to retire. Figure 2 shows the number of
frontline managers eligible for retirement in the next 5 calendar years.
               Figure 2: Number of Retirement Eligible Frontline Managers




              Source: The Human Resources Reporting Center.

In its 2008 annual report,6 the IRS Oversight Board recommended that the IRS place more
emphasis on employee career development and succession planning.7 It also recommended that
the IRS expand the availability of high-quality training and mentoring and develop
measurements for training programs to determine the effectiveness of the training. The
IRS Oversight Board requested that we perform this review.
This audit was conducted while changes were being made to the Program. The Program’s
curriculum was changed beginning in Fiscal Year 2010, and additional changes for evaluating
the Program are planned during Fiscal Year 2011. Any changes that have occurred since we
concluded our analyses in October 2010 are not reflected in this report. As a result, this report
might not reflect the most current status of the Program.
This review was performed at the IRS Human Capital Office Leadership, Education, and
Delivery Division in Washington, D.C.; the Wage and Investment Division Leadership
Development Succession Planning Office in Atlanta, Georgia; the Wage and Investment
Division Atlanta Campus Site Coordinator’s Office in Atlanta, Georgia; the Wage and

6
 IRS Oversight Board Annual Report to Congress 2008, dated March 2009.
7
 Succession planning is the ability to identify qualified candidates for a position prior to the position becoming
vacant.

                                                                                                               Page 3
                     The Impact of the Frontline Leader Readiness Program
                         on Succession Planning Should Be Determined



Investment Division Austin Campus Site Coordinator’s Office in Austin, Texas; the Wage and
Investment Division Kansas City Campus Site Coordinator’s Office in Kansas City, Missouri;
the Wage and Investment Division Fresno Campus Site Coordinator’s Office in
Fresno, California; the Wage and Investment Division Media and Publications Office in
Washington, D.C.; the Small Business/Self-Employed Division Strategic Management of Assets,
Resources, and Talent Human Capital Office in New Carrollton, Maryland; the Tax Exempt and
Government Entities Human Resources Division in Washington, D.C.; and the Criminal
Investigation Office of Strategy in Washington, D.C., during the period March through
October 2010.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 4
                         The Impact of the Frontline Leader Readiness Program
                             on Succession Planning Should Be Determined




                                      Results of Review

The ability of an organization to deliver business results often depends on the strength of its
frontline managers. For the IRS, frontline managers play a critical role in carrying out tax
administration for the country as well as individual taxpayers. To help ensure success in
fulfilling its mission, the IRS created the Program to identify and develop highly skilled
nonmanagers interested in assuming leadership responsibilities. Participants and managers
generally believe the Program is beneficial; however, it is not possible for the IRS to determine
whether the Program provides a pool of qualified candidates ready for promotion into frontline
manager positions or the overall impact of the Program.
The IRS is taking action to obtain feedback from Program graduates and their managers to
improve the Program. In Fiscal Year 2010, the IRS Human Capital Office began holding
conference calls with participants to obtain feedback on the Program. In addition, it plans to
survey Program graduates and their managers to assess how the graduates applied what they
learned. This feedback will be important to evaluating the success of the Program in preparing
participants for management positions.
However, the IRS does not generally assess graduates’ readiness for promotion upon completion
of the Program or measure the impact the Program has on succession planning. If the IRS
assessed the promotion potential of Program graduates and measured the impact of the Program,
it could better determine its bench strength8 at the frontline manager position and provide
valuable feedback to graduates. This would enable IRS management to make informed decisions
to ensure that upcoming leadership vacancies are filled in a timely manner with qualified leaders
who can carry out increasingly complex tax administration duties and interact with taxpayers,
which will help to preserve public confidence in the IRS’s ability to fulfill its mission. In
addition, if the IRS determined the training is successful, it could expand the Program to more
participants to create an even greater impact on frontline management.

Feedback From Program Graduates Is Now Being Obtained
The primary purpose of training evaluations is to gather credible data for improving training
which should, in turn, lead to improved job performance. Evaluating the link between training
and subsequent job performance establishes the accountability of the training to the
organizational mission.



8
  Bench strength is the relationship between the number of employees in the leadership pipeline who demonstrate
the required level of performance on leadership competencies and the number of critical leadership positions.
                                                                                                          Page 5
                           The Impact of the Frontline Leader Readiness Program
                               on Succession Planning Should Be Determined



Historically, the IRS Human Capital Office has not
requested feedback from promoted graduates or their             In Fiscal Year 2010, the
second-line managers9 to determine whether changes to the      IRS Human Capital Office
Program could help improve the curriculum or if               began obtaining feedback
participants thought the Program adequately prepared them      from Program graduates.
for management. However, beginning in Fiscal Year 2010,
the Program was changed to include requesting feedback from Program graduates.
Each of the four offices we sampled requests feedback at the end of classroom training sessions.
However, only two of the four offices request feedback from the participants at the conclusion of
the entire Program. One office conducts an exit interview with most of its Program participants.
In another office, an exit survey is sent to participants, but few responses are received. Prior to
Fiscal Year 2010, none of the four sampled offices or the IRS Human Capital Office requested
feedback from participants after they were promoted to a frontline manager position to determine
whether the Program was helpful in preparing them for a manager position or if changes to the
Program would be beneficial. Beginning in Fiscal Year 2010, the IRS Human Capital Office
began holding a conference call with all participants 2 months after the final classroom training
was held to, in part, obtain feedback on the Program.
To obtain independent feedback on the Program from participants, we issued a questionnaire to a
sample of 201 participants accepted into the Program during Fiscal Years 2008, 2009, and 2010
(through February 28, 2010) from our 4 sampled offices and received 150 responses (75 percent
response rate). Of the 60 respondents that received a permanent or temporary promotion since
participating in the Program, 41 (68 percent) believe the Program adequately prepared them for a
manager position. The most common reasons for feeling inadequately prepared were the lack of
day-to-day administrative and information system training and too much focus on dealing with
different personalities. However, beginning in Fiscal Year 2010, additional topics, such as
dealing with labor relations issues and preparing performance appraisals, were added to the
Program’s curriculum, which may address some of the participants’ concerns.
We also spoke with eight second-line managers who have Program participants working for
them as frontline managers. Seven of the eight second-line managers believe that the Program is
successful in preparing employees for frontline management. The eighth second-line manager
believes that the Program does a good job with the topics covered in the training, but also
believes that day-to-day administrative issues need to be included in the Program.
The IRS Human Capital Office plans to obtain formal, written feedback from Program graduates
in Fiscal Year 2011. The IRS Human Capital Office has adopted a four-level evaluation process
for its training programs. Each level assesses a different aspect of training: 1) reaction to the
training by participants, 2) achievement of goals for the training, 3) performance changes based
upon the training, and 4) the effect of the training on achieving organizational goals.

9
    Second-line managers are managers with frontline managers working for them.
                                                                                            Page 6
                             The Impact of the Frontline Leader Readiness Program
                                 on Succession Planning Should Be Determined



Beginning in Fiscal Year 2011, the IRS Human Capital Office plans to begin conducting
Level 3 evaluations10 of Program participants and their managers to assess how participants
applied what they learned in the Program. These improvements should help the IRS better
determine whether changes to the Program could generate greater impact on frontline
management by identifying areas where graduates believe they need additional training to either
obtain a frontline manager position or help them in their new frontline manager position.

Few Formal Assessments of Program Graduates’ Readiness for
Management Are Completed
Program graduates’ readiness for management is not generally assessed at the end of the
Program and such an assessment is not required by the IRS. Only one of the four offices we
reviewed voluntarily assessed graduates’ readiness for management. Without determining
whether Program graduates are ready for promotion into management, the IRS cannot ensure that
the Program successfully provides a pool of qualified candidates for future management
positions or if the Program helps improve the IRS’s bench strength at the frontline manager
position.
The Program includes many requirements for completion, including classroom training, online
courses, and an acting assignment. Prior to Fiscal Year 2010, the Program did not include a
required certification process to ensure all Program components were completed. Instead, once
participants completed the classroom training, they were considered graduates, even if not all the
other components, such as the acting assignment,
were completed. Beginning in Fiscal Year 2010,             Assessing Program graduates’
second-line managers were required to provide             readiness for management would
written feedback to Program participants after they       allow the IRS to better plan for its
complete a minimum 60 calendar day assignment as              future management needs.
an acting manager. In addition, the IRS Human
Capital Office required managers to certify that
Program participants completed the required assignments. However, this new IRS certification
process does not include an assessment of the participants’ readiness for management. Some
Program graduates may not be ready for a management position and need further development
before being considered for a promotion. These data would help the IRS in its succession
planning efforts.
Outside of the Program, the IRS has a separate process to determine the available pool of
qualified managers ready for promotion. The Leadership Succession Review process provides
an opportunity for all managers and for employees interested in becoming managers to become
actively involved with their development while offering the IRS a standardized, repeatable
process to identify potential leaders at all management levels. Since Calendar Year 2009, one of

10
     This will only encompass the third level of the four-level evaluation process.
                                                                                           Page 7
                        The Impact of the Frontline Leader Readiness Program
                            on Succession Planning Should Be Determined



the sampled offices has required employees participating in the Program to go through the
Leadership Succession Review as part of the curriculum. Neither the other three sampled offices
nor the IRS Human Capital Office required nonmanagers to go through the process. We sampled
206 Program participants from our 4 sampled offices during Fiscal Years 2008, 2009, and 2010
(through February 28, 2010) and determined whether they had gone through the Leadership
Succession Review process. Only 34 (17 percent) of 206 Program participants completed the
Leadership Succession Review process. Twenty-six of the 34 participants were from the
one office that requires all Program participants to go through the Leadership Succession Review
process.
The Office of Personnel Management published the Human Capital Assessment and
Accountability Framework in 2002 to provide Federal Government agencies with human capital
best practices. One critical success factor is the need for leadership planning and
implementation. A successful leadership plan identifies key position talent and provides for
assessing, developing, and managing the identified talent.
The IRS does not have a corporate requirement for frontline employees interested in
management to participate in the Leadership Succession Review. Each operating
division/functional office determines who participates in the process. We previously reported11
that the Leadership Succession Review process would be extremely important for IRS staff
below the frontline manager level so the IRS could assess its entry-level management needs.
Although the IRS has not required all frontline employees to participate in the Leadership
Succession Review, evaluating those who have completed the Program and have an interest in
management would allow the IRS to better plan for its future management needs. Feedback to
the graduates on their management readiness would also help them determine the next steps in
their own career planning.
Moreover, if assessments of readiness for management were completed at the end of the
Program, analyses of the results could be completed to determine potential areas where the
curriculum may need to be changed. This would be in addition to the informal conference calls
begun in Fiscal Year 2010 or the planned Fiscal Year 2011 Level 3 evaluations to help better
focus the Program on areas where participants are having difficulty. If these analyses indicate
that many Program participants are still not ready for management after completing the training,
it could indicate that the application process may not be effectively selecting the best candidates
to participate in the Program.




11
  Progress Has Been Made, but Important Work Must Be Completed to Ensure Timely Identification of Future
Leaders (Reference Number 2008-10-132, dated June 26, 2008).
                                                                                                     Page 8
                      The Impact of the Frontline Leader Readiness Program
                          on Succession Planning Should Be Determined



Recommendations
The IRS Human Capital Officer should:
Recommendation 1: Require an assessment of readiness for management, such as the
Leadership Succession Review, at the end of the Program for those Program graduates interested
in a frontline manager position.
       Management’s Response: The IRS agreed with the recommendation and will
       require an assessment of readiness for management, Leadership Succession Review, at
       the end of the Program for those Program graduates interested in a frontline manager
       position. The post-assessment will be taken 6 months or later after the conclusion of the
       Week Two classroom session as part of the graduate’s Business Unit Leader Succession
       Review cycle.
The Chief, Criminal Investigation, and the IRS Human Capital Officer should:
Recommendation 2: Analyze the results of the readiness assessments to determine whether
the Program needs to be changed to better prepare participants for frontline management or
whether the application process needs to be revised.
       Management’s Response: The IRS agreed with the recommendation and will
       analyze the results of the current Leadership Succession Review cycle in association with
       post-class survey results (Level 3 evaluations) to determine if overall competency and
       supporting behavior gaps warrant modification to the Program or application process.

Measures Have Not Been Established to Determine the Impact of the
Program
The IRS has not developed formal performance measures to assist management in assessing
whether the Program provides qualified candidates for frontline manager positions. Until
measures are developed, the IRS cannot determine the Program’s impact on succession planning
or if it is efficiently using the resources expended on the Program.
Employees from several offices we spoke with stated that the goal of the Program is to prepare
employees for management. Since many Program participants are now managers, they believe
the Program is successful. However, data used to formally assess the success of the Program are
limited. For example, the IRS does not track the percentage of new frontline managers who
participated in the Program. In addition, the IRS does not track the number of promoted
Program participants by graduating class on a fiscal year basis. Instead, it tracks the number of
participants promoted in a fiscal year, regardless of graduating class. As a result, the IRS cannot
determine a measurable placement rate, such as the percentage of participants who complete the
Program and were promoted in a given fiscal year.


                                                                                            Page 9
                         The Impact of the Frontline Leader Readiness Program
                             on Succession Planning Should Be Determined



For example, in Fiscal Year 2008, 266 employees completed the Program. Available data
showed that 127 Program graduates received permanent promotions to frontline manager
positions during that same fiscal year. However, some of those that received a promotion in
Fiscal Year 2008 may have graduated from the Program in prior fiscal years; therefore, the IRS
does not know what percentage of the 266 graduates actually were promoted either in the same
year they graduated or in future years. This makes it difficult to develop an accurate measure of
the Program’s placement rate on a fiscal year basis or whether the placement rate is improving
from year to year.
Further, data reported to the IRS Human Capital Office are not always accurate. Each office
tracks its promotions separately and reports the figures to the IRS Human Capital Office.
However, not all offices track or report the data consistently. For example, one office reported to
the IRS Human Capital Office that no participants were promoted during Fiscal Year 2009, but
the data we received from this same office showed seven participants were promoted during this
same time period.12 Another office informed us that each function within the office is
responsible for providing the promotion data, but not all of them consistently provide this
information.
The IRS also does not track the costs associated with the Program. We attempted to obtain the
costs of the Program from the four sampled offices and the IRS Human Capital Office; however,
not all offices tracked the costs of the Program. Two offices could not provide us with any cost
data. Others provided us with travel and supply costs, but could not provide any labor costs
associated with the amount of time participants spent on the Program. Using available cost data,
we conservatively estimate that more than $4.9 million was spent on the Program in Fiscal
Year 2008 and more than $3.7 million was spent in Fiscal Year 2009 by our sampled offices and
the IRS Human Capital Office.13
While the IRS has created curriculum and invested time and resources to develop training
programs for frontline managers, senior managers, and executives, IRS Human Capital Office
management stated that the IRS has focused on training for future executives and has not had the
same corporate focus on senior and frontline manager readiness training.
One of the critical success factors identified in the Office of Personnel Management’s
Framework is the need for agencies to evaluate the impact of investment in continuous learning
and development on individual performance and mission accomplishment. One suggested
measure is to perform a cost-benefit analysis to determine the benefits derived in individual or
organizational performance. Another suggested measure is to determine the impact of training in
terms of workplace performance, process improvements, and achievement of organizational
and/or employee goals. In addition, the United States Code14 states that each Agency head


12
   See Appendix IV for additional information.
13
   See Appendix V for further explanation.
14
   5 U.S.C. Section 4103 (2009).
                                                                                           Page 10
                     The Impact of the Frontline Leader Readiness Program
                         on Succession Planning Should Be Determined



should evaluate training programs with respect to accomplishing specific performance plans and
strategic goals in performing the Agency mission and modify such program or plan as needed.
The IRS has not established formal goals or measures for the Program. Without these, the IRS
cannot measure the Program’s impact on succession planning, the costs and benefits of the
Program, whether changes are needed to the curriculum, or if the Program should be expanded to
more participants for greater impact on frontline management.

Recommendations
The Chief, Criminal Investigation, and the IRS Human Capital Officer should:
Recommendation 3: Develop a plan of what measures are needed to determine the
Program’s impact on succession planning and how to best collect the data necessary to quantify
those measures. This plan should include, but not be limited to, measures such as:
   a) Promotions of Program graduates to frontline manager positions on a fiscal year basis, in
      order to determine a measurable placement rate for the Program from year to year.
   b) Costs associated with the training, including estimated time expended and all travel costs,
      to aid in determining the costs versus benefits of the Program.
Additionally, the IRS Human Capital Officer should include in his plan:
   c) The percentage of newly selected permanent frontline managers who participated in the
      Program compared to the percentage who did not participate in the Program.
       Management’s Response: The IRS agreed with the recommendation and Criminal
       Investigation and the Human Capital Office will each develop plans of what measures are
       needed to determine the Program’s impact on succession planning and how best to collect
       the data necessary to quantify those measures.
The IRS Human Capital Officer should:
Recommendation 4: Establish a data collection process to capture all necessary information
from the operating divisions/functional offices related to the number of their respective graduates
and the number of promotions on a fiscal year basis to accurately measure the impact of the
Program on frontline management.
       Management’s Response: The IRS agreed with the recommendation and will
       establish a data collection process to capture all necessary information from the operating
       divisions/functional offices related to the number of their graduates and the number of
       promotions on a fiscal year basis to accurately measure the impact of the Program on
       frontline management.



                                                                                           Page 11
                         The Impact of the Frontline Leader Readiness Program
                             on Succession Planning Should Be Determined



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the Frontline Leader Readiness
Program (hereafter referred to as the Program) provided the IRS with a pool of qualified
candidates ready for promotion into management positions and whether the IRS measured the
impact of the Program. To accomplish these objectives, we:
I.      Assessed the requirements for admittance into the Program and how successfully
        completing the Program relates to the promotion process.
        A. Interviewed a judgmental sample1 of management from three IRS operating divisions
           and one functional office to determine:
             1. The requirements for selection into the Program.
             2. Whether participants receive written evaluations assessing their readiness for
                promotion at the end of the Program.
        B. Obtained procedures related to the selection and completion processes for the
           Program for each of the sampled offices.
        C. Interviewed IRS Human Capital Office management to determine their role in the
           overall IRS frontline readiness process.
        D. Obtained Program participant lists for the sampled offices for Fiscal Years 2008,
           2009, and 2010 (through February 28, 2010).
        E. For the sampled IRS offices, determined whether employees interested in the
           Program were included in the Leadership Succession Review process and whether the
           Review results were used when determining acceptance into the Program during
           Fiscal Years 2008, 2009, and 2010 (through February 28, 2010).
             1. Obtained statistics on the results of the Leadership Succession Reviews for Fiscal
                Years 2008, 2009, and 2010 (through February 28, 2010) for employees interested
                in a frontline manager position.
             2. Assessed the Leadership Succession Review ratings of employees who were
                accepted into the Program during Fiscal Years 2008, 2009, and 2010 (through


1
  We selected a judgmental sample of offices because the number of participants for the entire IRS would be too
large for us to review. Our sample included two offices with the largest number of participants and two offices with
a small number of participants.
                                                                                                           Page 12
                         The Impact of the Frontline Leader Readiness Program
                             on Succession Planning Should Be Determined



                 February 28, 2010). We selected a 20 percent judgmental sample2 of 197 of the
                 989 Program participants from lists received in Step I.D. to assess their promotion
                 status and obtain feedback on the Program. We also selected a 100 percent
                 sample of 9 participants from the fourth office for a sample size total of
                 206 participants.
II.     Determined whether the IRS had measures in place that assessed the Program and
        whether the Program assisted the IRS in preparing potential future leaders.
        A. Assessed whether the IRS or the sampled offices had sufficient measures in place for
           the Program.
        B. Obtained any data used to measure the Program for Fiscal Years 2008 and 2009.
        C. Obtained all available cost data from the IRS Human Capital Office and the sampled
           offices for the Program during Fiscal Years 2008 and 2009 to determine the resources
           used to develop potential future leaders.
        D. Interviewed a judgmental sample of eight second-line managers from an unknown
           population to determine whether they considered the Program a successful training
           program that adequately prepared participants for becoming frontline managers.3
III.    Assessed the impact of the Program on an employee’s promotion potential for a frontline
        manager position by administering a questionnaire to Program participants.
        A. Selected a 20 percent judgmental sample2 of 197 of the 989 Program participants
           from 3 lists received in Step I.D. to assess their promotion status and obtain feedback
           on the Program. We also selected a 100 percent sample of 9 participants from the
           fourth office for a sample size total of 206 participants.4
        B. Assessed the responses to the questionnaire to determine if additional information
           was required and followed up as necessary to obtain all needed information.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS Human Capital Office’s policies,
procedures, and practices for administering and monitoring the Program to provide a group of


2
  We used judgmental sampling to select participants because we did not plan to project the results.
3
  We used judgmental sampling to select second-line managers because we did not plan to project the results.
4
  We could not locate 5 employees on the IRS email system or the employee directory; therefore, we issued
201 questionnaires to Program participants.
                                                                                                          Page 13
                     The Impact of the Frontline Leader Readiness Program
                         on Succession Planning Should Be Determined



qualified candidates for frontline manager positions, as well as the sampled offices’ policies,
procedures, and practices for selecting Program participants. We evaluated these controls by
interviewing management, administering a questionnaire, and reviewing applicable information.




                                                                                        Page 14
                   The Impact of the Frontline Leader Readiness Program
                       on Succession Planning Should Be Determined



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Cheryl J. Medina, Lead Auditor
William Simmons, Senior Auditor
Carol Rowland, Auditor




                                                                                  Page 15
                   The Impact of the Frontline Leader Readiness Program
                       on Succession Planning Should Be Determined



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations and Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Leadership, Education, and Delivery Services OS:HC:LE
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, Criminal Investigation SE:CI
   Commissioner, Small Business/Self-Employed Division SE:S
   IRS Human Capital Officer OS:HC
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 16
                     The Impact of the Frontline Leader Readiness Program
                         on Succession Planning Should Be Determined



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; information related to seven employees affected (see
    page 9).

Methodology Used to Measure the Reported Benefit:
We obtained promotion information from the sampled offices on the number of Frontline Leader
Readiness Program participants who received promotions to frontline management. We received
similar information from the IRS Human Capital Office. A comparison of the two lists for one
of the operating divisions showed that the number of promoted Program participants was not the
same. The operating division indicated that seven participants were promoted to frontline
management in Fiscal Year 2009, but the IRS Human Capital Office data showed that
no participants from this same operating division were promoted during the same time period.




                                                                                         Page 17
                          The Impact of the Frontline Leader Readiness Program
                              on Succession Planning Should Be Determined



                                                                                                  Appendix V

                  Frontline Leader Readiness Program
                           Cost Computations

We requested cost data for the Frontline Leader Readiness Program (hereafter referred to as the
Program) from our four sampled offices as well as the IRS Human Capital Office. Available
information was limited.1 Figure 1 provides the estimated Program costs for Fiscal Years 2008
and 2009.
       Figure 1: Total Estimated Program Costs – Fiscal Years 2008 and 20092

                                                     Travel and          Estimated
                                                      Supplies         Time Charges               Total
       IRS Human Capital Office and                   $690,551           $3,332,292            $4,022,843
       Sampled Operating Division
       Program Costs (Fiscal Year 2008)
       Criminal Investigation Program                 $201,416            $731,831              $933,247
       Costs (Fiscal Year 2008)
                                                                         2008 Total            $4,956,090
       IRS Human Capital Office and                   $343,821           $2,344,849            $2,688,670
       Sampled Operating Division
       Program Costs (Fiscal Year 2009)
       Criminal Investigation Program                 $263,383            $811,257             $1,074,640
       Costs (Fiscal Year 2009)
                                                                         2009 Total            $3,763,310
                                                                        Grand Total            $8,719,400
     Source: Travel and supply charges were provided by the IRS Human Capital Office and the sampled
     offices. Estimated time charges were computed using the average IRS salary and the amount of time
     the IRS estimates it takes for an individual to complete required Program work.



1
  We received travel costs from two of the four sampled offices; therefore, our estimated cost of the Program is
conservative. We did not receive actual time charges from any office. Instead, we used estimated times for
completion of the various components of the Program to calculate the cost of time expended on the training.
Criminal Investigation has its own Program; therefore, its estimated costs were computed separately.
2
  Amounts were rounded to the nearest dollar.
                                                                                                            Page 18
                          The Impact of the Frontline Leader Readiness Program
                              on Succession Planning Should Be Determined



                                                                      Appendix VI

           Management’s Response to the Draft Report1




1
    LSR = Leadership Succession Review.
                                                                             Page 19
The Impact of the Frontline Leader Readiness Program
    on Succession Planning Should Be Determined




                                                   Page 20
The Impact of the Frontline Leader Readiness Program
    on Succession Planning Should Be Determined




                                                   Page 21
The Impact of the Frontline Leader Readiness Program
    on Succession Planning Should Be Determined




                                                   Page 22
